                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AGREED-UPON PROCEDURES FOR CORPORATION
    GRANTS AWARDED TO THE CHILD ABUSE PREVENTION
          COUNCIL OF SACRAMENTO, INC. & PREVENT
                 CHILD ABUSE CALIFORNIA

                        OIG REPORT 11-08




                            Prepared by:

                   Mayer Hoffman McCann P.C.
                   2301 Dupont Drive, Suite 200
                      Irvine, California 92612




This report was issued to Corporation management on April 25, 2011. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
October 24, 2011 and complete its corrective actions by April 25, 2012. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                       NATIONAL
                                       COMMUNITY
                                                &
                                       SERVICEt t t t
                           OFFICE OF INSPECTOR GENERAL

                                         April 25,2011


TO:            John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Gr~nts Management J   #1
FROM:          Stuart Axenfeld    ~ A~,
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-08, Agreed-Upon Procedures Review of Corporation Grants
               Awarded to the Child Abuse Prevention Council of Sacramento (CAPC) &
               Prevent Child Abuse California (PCA)


Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Mayer Hoffman
McCann P. C. (MHM). The contract required MHM to conduct its review in accordance with
generally accepted government auditing standards.

MHM is responsible for the attached report, dated January 18, 2011, and the conclusions
expressed therein. The agreed-upon procedures, unlike an audit in accordance with U.S.
generally accepted auditing standards, was not intended to enable us to express opinions on
CAPC & PCA Consolidated Schedule of Awards and Claimed and Questioned Costs or the
subgrantees' Schedule of Awards and Claimed and Questioned Costs, conclusions on the
effectiveness of internal controls, or compliance with laws, regulations, and grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by October 25, 2011. Notice of final action is due by April 26, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Rick
Samson, Audit Manager, at (202) 606-9380.

Attachment

cc:     Sheila Boxley, President and CEO
        Karen Baker, Secretary of Service and Volunteering, California Volunteers
        Robert Velasco II, Chief Operating Officer
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
        Management, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Jack Goldberg, Grant Officer
        Ronald Rolwes, Shareholder, Mayer Hoffman McCann, P.C.

                1201 New York Avenue, NW  *           *
                                              Suite 830  DWashington, DC 20525
                    202-606-9390  *Hotline: 800-452-8210 *www.cncsoig .gov

                      Senior Corps * AmeriCorps * Learn and Serve America
          AGREED-UPON PROCEDURES FOR CORPORATION GRANTS AWARDED TO
  THE CHILD ABUSE PREVENTION COUNCIL OF SACRAMENTO, INC. & PREVENT CHILD ABUSE
                                  CALIFORNIA

                                  Table of Contents

                                                                            Page

Executive Summary                                                            1

Independent Accountants’ Report on Applying Agreed-Upon Procedures           6

   Results – Costs Claimed                                                   7

   Consolidated Schedule of Claimed and Questioned Costs                     8

   Notes to Consolidated Schedule of Claimed and Questioned Costs            9

   Results – Compliance and Internal Control                                 10

Appendix A – Child Abuse Prevention Council of Sacramento, Inc. & Prevent
             Child Abuse California’s Response to Draft Report
Appendix B – Corporation for National and Community Service’s Response to
             Draft Report
                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures on grant costs and compliance for Corporation-funded Federal assistance
provided to the Child Abuse Prevention Council of Sacramento, Inc. (CAPC) & Prevent Child
Abuse California (PCA).

Results

As a result of applying our procedures, we questioned claimed Federal-share costs of
$12,781. We also questioned education awards and accrued interest payments related to
members’ service under the terms of the grant, but funded outside of the grant, of $22,833
and $1,624, respectively. A questioned cost is an alleged violation of provision of law,
regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds; or a finding that, at the time of testing, such cost is not
supported by adequate documentation. The detailed cost results of our agreed-upon
procedures are presented in the Consolidated Schedule of Claimed and Questioned Costs.

CAPC & PCA claimed total Federal costs of $3,380,942 and $3,347,971, respectively, from
October 1, 2008, through September 30, 2010, under various grants. As a result of testing a
judgmentally selected sample of transactions, we questioned costs claimed, as shown in the
following table:

        Description of                                   Federal       Education   Accrued
       Questioned Costs                Grant No.          Share         Awards     Interest

Unallowable Mortgage Interest     06ACHCA0010010           $1,293          -          -
                                  09RFHCA0010009              294          -          -
                                  06AFHCA0010046              264          -          -
                                  09RCHCA0020003              411          -          -
                                  06AFHCA0010030              790          -          -
                                  06AFHCA001003             1,002          -          -
                                  06ACHCA0010020              468          -          -
                                  09RCHCA0020006              129          -          -
                                  09RFHCA0010007                7          -          -
                                  07NDHCA001                  122          -          -
                                         Sub-total:         4,780          -          -

Service Hours Not Met             06AFHCA001003                    -      $9,450          $374

Non-compelling Circumstances      06AFHCA0010046                   -       4,358       1,052
                                  06ACHCA0010020                   -       4,300           -
                                         Sub-total:                -       8,658       1,052

Ineligible Individual Enrolled    06AFHCA001003             8,001          4,725         198
                                            Total:        $12,781        $22,833      $1,624

The amounts shown above were the exceptions found during our testing. Our testing also
revealed unallowable match costs totaling $57,661. However, the match cost has not been
questioned because CAPC and PCA had enough excess match to meet the requirement.



                                              1
AmeriCorps members who successfully complete their terms of service, are eligible for
education awards and for payments of interest on student loans (accrued interest) that were
deferred while the members served. These costs are funded by the Corporation’s National
Service Trust and not by Corporation grants, therefore are not costs claimed by CAPC &
PCA. However, as part of our agreed-upon procedures, we determined the effect of our
findings on eligibility for education awards and accrued interest payments. Using the same
criteria described above, we questioned education awards of $22,833 and accrued interest
payments of $1,624.

Details related to these questioned costs and awards appear in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures that follows.

The detailed results of our agreed-upon procedures revealed the following instances of non-
compliance with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements:

   •   CAPC & PCA lacked sufficient support for mortgage interest and other program
       match costs claimed.

   •   Members did not always meet minimum program requirements to earn an education
       award and to have their accrued interest paid.

   •   Non-Compliance with AmeriCorps provisions, including late submission of member
       forms; members serving before being enrolled; missing documentation for attending
       orientation or orientation not performed; and evaluations not performed.

We also compared the inception-to-date drawdown amounts with the amounts reported in
the grantee’s most recent Financial Status Report (FSR) and Federal Financial Report
(FFR) under each grant and determined that the drawdown amounts were reasonable.


Agreed-Upon-Procedures Scope

We performed our agreed-upon procedures during the period October 18, 2010, through
January 18, 2011. They covered the allowability, allocability, and reasonableness of
financial transactions claimed for the following grants and periods:

                                      CAPC Grants
  Program Name           Grant Number           Program Period        Testing Period
Birth&Beyond(B&B)      06ACHCA0010010        07/01/08 – 12/31/10    10/01/08 – 09/30/10
B&B Recovery
Match Replacement      09RFHCA0010009        07/01/08 – 12/31/09    10/01/08 – 12/31/09
Great Beginnings       06AFHCA0010030        07/01/08 – 12/31/10    10/01/08 – 09/30/10
Youth Investment
Center (YIC)           06AFHCA0010046        07/01/08 – 12/31/09    10/01/08 – 12/31/09
YIC Recovery           09RCHCA0020003        06/01/09 – 09/30/10    06/01/09 – 09/30/10




                                            2
                                        PCA Grants
   Program Name           Grant Number           Program Period          Testing Period
Child Welfare System
Redesign (CWS)          06ACHCA0010020         07/01/08 – 12/31/10     10/01/08 – 9/30/10
CWS Match
Replacement             09RFHCA0010007         07/01/08 – 12/31/09    10/01/08 – 12/31/09
CWS Recovery            09RCHCA0020006         06/01/09 – 09/30/10    06/01/09 – 09/30/10
First 5 Service Corps   06AFHCA001003          07/01/08 – 12/31/10    10/01/08 – 09/30/10
Child Abuse Prev.
Alliance (CAPA)         07NDHCA001             07/10/07 – 07/09/11    10/01/08 – 09/30/10
CAPA Recovery           09RNHCA003             07/01/09 – 06/30/10    07/01/09 – 06/30/10

The procedures performed are based on the OIG’s agreed-upon-procedures program, dated
August 2010, and are included in the Independent Accountants’ Report on Applying Agreed-
Upon Procedures.

Background

The Corporation, under the National Community Service Trust Act of 1993, as amended,
awards grants and cooperative agreements to National Direct Grantees and other entities to
assist in the creation of full- and part-time national and community service programs.

The Child Abuse Prevention Council of Sacramento, Inc. (CAPC) was formed in 1977 and
incorporated under the laws of the State of California in 1982 as a nonprofit public benefit
corporation. Its’ mission is to protect children in Sacramento County from the risk or impact
of abuse, neglect, or abandonment. CAPC’s board of directors also controls three other
nonprofit organizations; Prevent Child Abuse California, Community School Solutions of
California, Inc. and Lift the Children. These organizations also have common management
and share certain employees.

Prevent Child Abuse California (PCA) is a tax-exempt corporation organized under the laws
of the State of California. Its’ mission is to prevent the abuse and neglect of California’s
children by building community resources, enhancing public awareness, developing and
coordinating prevention programs, and facilitating advocacy activities. PCA has also begun
extending its mission on the national level through a National Direct AmeriCorps Program,
funded directly by the Corporation. Its’ grant, in its third year of operation, focuses on
prevention activities and has AmeriCorps members serving in Oregon, Vermont,
Washington, DC, and California.

CAPC operates three AmeriCorps programs as a subgrantee of California Volunteers, which
is the State Commission of California: Birth and Beyond, Great Beginnings and Youth
Investment Center. All program expenses are reimbursed based on quarterly FSRs
submitted to California Volunteers.

PCA operates three AmeriCorps programs as well. The Child Welfare System program is a
subgrant of California Volunteers; Child Abuse Prevention Alliance is a National Direct grant
with the Corporation; and First 5 Recovery Corps is not a subgrantee of California
Volunteers or a National Direct grant. It operates under an intermediary agreement with
California Children and Families Foundation, a subgrantee of California Volunteers.

                                             3
FSRs for all subgrantee programs are submitted directly to California Volunteers on a
quarterly basis. The FFRs for the National Direct program are submitted semiannually.

CAPC and PCA do not have members in any of the six programs. All members are
supervised by partners or subgrantees of CAPC and PCA. However, CAPC and PCA
maintain all member files and original documentation. CAPC’s and PAC’s portion of the
AmeriCorps costs consist of program operating costs such as personnel expenses, fringe
benefits, travel, contractual and consultant services, member training, administrative costs
and member living allowances. As indicated above, except for the First 5 Service Corps
program in 2008-2009, all Federal costs claimed were incurred by CAPC or PAC. There
were no Federal costs claimed by any of the subgrantees or partners.

CAPC and PCA utilized an in-house payroll system starting January 2009 and used
electronic timesheets for both members and staff. Prior to that, both organizations used
ADP and timesheets were in hard copy form.

As illustrated in the following tables, CAPC & PCA received Federal grant funds of
$3,920,402 and $4,292,731, respectively, for various Corporation programs. CAPC & PCA
claimed Federal costs of $3,380,942 and $3,347,971, respectively, during the period
October 1, 2008, through September 30, 2010. We tested $855,434 and 576,595 of total
costs claimed by CAPC & PCA, respectively, as follows:

                                      CAPC Grants
                                                           Claimed during
    Program Name          Grant Number       Award Amount Testing Period Costs Tested
Birth & Beyond (B&B)    06ACHCA0010010         $ 1,920,902   $ 1,664,686   $ 303,994
B&B Recovery Match
Replacement             09RFHCA0010009              432,187          306,084        140,105
Great Beginnings        06AFHCA0010030              793,256          668,211        172,947
Youth Investment
Center (YIC)            06AFHCA0010046               281,489        281,489        104,904
YIC Recovery            09RCHCA0020003               492,568        460,472        133,484
                             Total               $ 3,920,402    $ 3,380,942      $ 855,434

                                       PCA Grants
                                                          Claimed during
    Program Name       Grant Number          Award Amount Testing Period Costs Tested
Child Welfare System
Redesign (CWS)       06ACHCA0010020              $ 846,958      $    652,092    $    62,790
CWS Match
Replacement          09RFHCA0010007                 116,557           15,115              -
CWS Recovery         09RCHCA0020006                 220,137          119,107         62,402
First 5 Service Corps   06AFHCA001003             2,180,119         1,852,074       341,453
Child Abuse Prev.
Alliance (CAPA)           07NDHCA001                 876,960        657,583        109,950
CAPA Recovery             09RNHCA003                  52,000         52,000              -
                             Total               $ 4,292,731    $ 3,347,971      $ 576,595

                                             4
Exit Conference

The contents of this report were discussed with the Corporation and CAPC & PCA at an exit
conference held in Sacramento, CA, on January 18, 2011. In addition, we provided a draft
of this report to CAPC & PCA and to the Corporation for comment on February 16, 2011.
The Grantee and the Corporation’s responses are included in Appendix A and Appendix B,
respectively, and summarized after each finding.




                                           5
    ector Genera
Inspe           al
Corpo
    oration for National
                N        and Communityy Service


                              INDEPENDEN
                                       NT ACCOUNTA
                                                 ANTS’ REPOR
                                                           RT ON
                               APPLYING AGREED-UPO
                                                 ON PROCEDUURES

We have
     h      perform
                  med the procedures desscribed belo   ow for costs claimed be  etween Octo  ober 1,
2008, and September 30, 20    010. The pro  ocedures weere agreed to            G solely to assist it
                                                                     o by the OIG
in gra
     ant-cost and d compliancce testing off Corporation-funded Fe   ederal assisstance provid ded to
Child Abuse Prev   vention Council of Sacra amento, Inc.. & Prevent Child
                                                                     C     Abusee California (CAPC
                                                                                             (
& PCCA) for the awards
                  a        and periods listeed below, with
                                                       w a combiined award period of Ju      uly 10,
2007 through Ju   uly 9, 2011. CAPC & PCA   P     managgement is re esponsible for
                                                                                f the acco  ounting
recorrds. This agreed-upon
                  a            n procedure es engagem ment was pe   erformed in accordance    e with
attesttation standdards established by the  e American Institute of Certified Public Accou  untants
and generally
     g          accepted gove  ernment aud diting standa
                                                       ards. The su ufficiency of these proceedures
is solely the respponsibility off the OIG. Consequent
                                            C           tly, we makee no represe entation regarding
the sufficiency off the procedures describ bed below, either
                                                       e            e purpose for which this report
                                                              for the
has been
     b      requested or any other
                              o       purpose.

                                          C
                                          CAPC Grantts

     ogram Name
   Pro                     Gra
                             ant Number              Prog
                                                        gram Period          Testting Period
Birth & Beyond
(B&BB)                   06AC
                            CHCA001001
                                     10         07/01/0
                                                      08 – 12/31/1
                                                                 10       10/01/0
                                                                                08 – 09/30/1
                                                                                           10
B&B Recovery
Match Replacemment       09RF
                            FHCA001000
                                     09         07/01/0
                                                      08 – 12/31/0
                                                                 09       10/01/0
                                                                                08 – 12/31/0
                                                                                           09
Great Beginnings
               s         06AF
                            FHCA001003
                                     30         07/01/0
                                                      08 – 12/31/1
                                                                 10       10/01/0
                                                                                08 – 09/30/1
                                                                                           10
Youth
    h Investmen
              nt
Cente
    er (YIC)             06AF
                            FHCA001004
                                     46         07/01/0
                                                      08 – 12/31/0
                                                                 09       10/01/0
                                                                                08 – 12/31/0
                                                                                           09
YIC Recovery
    R                   09RC
                           CHCA002000
                                    03          06/01/0
                                                      09 – 09/30/1
                                                                 10       06/01/0
                                                                                09 – 09/30/1
                                                                                           10


                                             PCA Grants
                                                      s

  Proogram Name             Grrant Numberr           Pro
                                                       ogram Period
                                                                  d          Tessting Period
Child Welfare
Syste
    em (CWS)             06AC
                            CHCA00100
                                    020           07/01/08 – 12/31//10     10/01/08 – 9/30/1
                                                                                           10
CWS S Match
Replaacement                FHCA0010007
                         09RF                     07/01/08 – 12/31//09    10/01//08 – 12/31/0
                                                                                            09
CWS S Recovery           09RC
                            CHCA00200
                                    006           06/01/09 – 09/30//10    06/01//09 – 09/30/10
First 5 Service
Corpss                    06AFHCA00100
                                     03           07/01/08 – 12/31//10    10/01//08 – 09/30/10

                                                 6
                              PCA Grants (Continued)
Program Name             Grant Number       Program Period            Testing Period
Child Abuse Prev.        07NDHCA001          07/10/07 – 07/09/11    10/01/08 – 09/30/10
Alliance (CAPA)
CAPA Recovery            09RNHCA003          07/01/09 – 06/30/10    07/01/09 – 06/30/10

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on management’s assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

The procedures performed included obtaining an understanding of CAPC & PCA and its
partners’ monitoring processes; reconciling Federal costs claimed and match costs to the
accounting systems of CAPC & PCA and of its partners; reviewing member files to verify that
the records supported eligibility to serve and allowability of education awards; and testing
compliance of CAPC & PCA with selected grant provisions and award terms and conditions.
In addition, we interviewed 29 members to ensure they were in compliance with grant
provisions and requirements.

We also tested claimed Federal costs and match costs of CAPC & PCA and its partners to
ensure: (i) Proper recording of the AmeriCorps grants; (ii) Matching requirements were met;
and (iii) Costs were allowable and supported in accordance with applicable regulations, OMB
circulars, grant provisions, and award terms and conditions.

                                 Results – Costs Claimed

The results of cost testing are summarized in the following Consolidated Schedule of Claimed
and Questioned Costs. The schedule also identifies instances of questioned education
awards and related accrued interest payments. These awards and payments are funded by
the National Service Trust, not Corporation grants, and accordingly are not included in
claimed costs. However, as part of our agreed-upon procedures, we determined the effect of
member service hour data and eligibility exceptions on these awards.




                                             7
              AGREED-UPON PROCEDURES FOR CORPORATION GRANTS AWARDED TO
                  CHILD ABUSE PREVENTION COUNCIL OF SACRAMENTO, INC. &
                            PREVENT CHILD ABUSE CALIFORNIA

                 Consolidated Schedule of Claimed and Questioned Costs

                     Costs Claimed     Federal     Education       Accrued
                     Within Testing     Costs       Awards         Interest
  Grant Number           Period       Questioned   Questioned     Questioned     Note(s)
09RNHCA003               $52,000            -              -             -
06ACHCA0010010          1,664,686     $ 1,293              -             -       1
09RFHCA0010009           306,084         294               -             -       1
06AFHCA0010030           668,211         790               -             -       1
06AFHCA0010046           281,489         264         $4,358        $1,052       1&3
09RCHCA0020003           460,472         411               -             -       1
06ACHCA0010020           652,092         468          4,299                     1&3
09RFHCA0010007             15,115          7               -             -       1
09RCHCA0020006           119,107         129               -             -       1
06AFHCA001003           1,852,074       9,003        14,176           572       1,2,&4
07NDHCA001               657,583         122               -             -       1
      Total            $6,728,913     $12,781      $22,833         $1,624

The Federal costs, education awards, and accrued interest payments questioned under the
grants audited resulted from:

1. Lack of lease/purchase analysis for mortgage interest claimed. Total questioned cost is
   $4,780 (see Finding 1).

2. Five members tested who had received education awards under the various grants in
   Program Year 2008-2009 did not meet the minimum requirements of the program. The
   members either did not serve the minimum required hours, or their hours for a partial
   award were overstated. Total education award costs and accrued interest payments
   questioned are $9,451 and $374, respectively (see Finding 2).

3. Two PCA full-time members under the 2008-2009 CWS program, Grant No.
   06ACHCA0010020, and 1 CAPC full-time member under the 2008-2009 YIC program,
   Grant No. 06AFHCA0010046, received partial awards but the compelling personal
   circumstances they cited for early exit did not meet the AmeriCorps provision
   requirements. Total education award costs and accrued interest payments questioned are
   $8,657 and $1,052, respectively (see Finding 2).

4. One individual in Program Year 2008-2009 enrolled under First 5 Service Corp (First 5),
   Grant No. 06AFHCA001003, did not meet the member eligibility requirement. Total living
   allowances, education award, and accrued interest payments questioned are $8,001,
   $4,725, and $198, respectively (see Finding 2).


                                            8
            Notes to Consolidated Schedule of Claimed and Questioned Costs

Basis of Accounting

The accompanying schedule has been prepared to comply with provisions of the grant
agreements between the Corporation and CAPC & PCA. The information presented in the
schedule has been prepared from reports submitted by CAPC & PCA to the Corporation and
accounting records of CAPC & PCA. The basis of accounting used in the preparation of
these reports differs from accounting principles generally accepted in the United States of
America as discussed below.

Equipment

No equipment was purchased and claimed under Federal or match share of costs for the
period within our review scope.

Inventory

Minor materials and supplies were charged to expense during the period of purchase.




                                            9
                           Results - Compliance and Internal Control

The results of our agreed-upon procedures revealed the following instances of non-
compliance with grant provisions, regulations, or OMB requirements:

Finding 1.        CAPC & PCA lacked sufficient support for mortgage interest and other
                  program match costs claimed.

Interest on a mortgage loan for the purchase of an office building was claimed as part of the
facility expenses and administrative expenses among all the programs under CAPC and
PCA. Total Federal share of interest claimed was $4,780. Total match share claimed was
$8,809. However, CAPC and PCA were unable to provide a lease/purchase analysis as
required by OMB Circular A-122 Cost Principals for Non-Profit Organizations. According to
grantee officials, the lease/purchase analysis was performed prior to the facility being
purchased. However, the documentation was lost due to black mold contamination in the
grantee’s office and no backup plan was in effect for the information.

In addition, during our testing of match costs, we noted $23,582 of match costs claimed in
Program Year 2008-2009 that lacked invoices or original receipts:

                    Program            Grant Number           Match
             CAPA                    07NDHCA001                $15,942
             CWS                     06ACHCA0010020                 185
             First 5                 06AFHCA001003                7,455
                 Total Other Direct Cost Questioned            $23,582

Management indicated many records were misplaced due to improper record retention
practices and staff turnover of the subgrantees and their partners.

Finally, our living allowance testing revealed that PCA over-claimed match costs for three
members totaling $18,162 under the 2008-2009 First 5 program, Grant No.
06AFHCA001003. According to PCA, the variance was due to a combination of over and
under claimed match living allowance amounts for the three members. Further, a portion of
the variance was due to an erroneous posting in which a budgeted amount was claimed.

Criteria

OMB Circular A-122 - Cost Principles for Not-for-Profit Organizations, Attachment B, Section
23-Interest, states;

           a. Costs incurred for interest on borrowed capital, temporary use of
           endowment funds, or the use of the non-profit organization’s own funds,
           however represented, are unallowable. However, interest on debt incurred
           after September 29, 1995 to acquire or replace capital assets (including
           renovations, alterations, equipment, land, and capital assets acquired through
           capital leases), acquired after September 29, 1995 and used in support of
           Federal awards is allowable, provided that:

                                          *      *       *



                                                10
       For facilities costing over $500,000, the non-profit organization prepares, prior
       to the acquisition or replacement of the facility, a lease/purchase analysis in
       accordance with the provisions of Sec. __.30 through __.37 of Circular A-110,
       which shows that a financed purchase or capital lease is less costly to the
       organization than other leasing alternatives, on a net present value basis.
       Discount rates used should be equal to the non-profit organization's
       anticipated interest rates and should be no higher than the fair market rate
       available to the non-profit organization from an unrelated ("arm's length") third-
       party. The lease/purchase analysis shall include a comparison of the net
       present value of the projected total cost comparisons of both alternatives over
       the period the asset is expected to be used by the non-profit organization. The
       cost comparisons associated with purchasing the facility shall include the
       estimated purchase price, anticipated operating and maintenance costs
       (including property taxes, if applicable) not included in the debt financing, less
       any estimated asset salvage value at the end of the period defined above. The
       cost comparison for a capital lease shall include the estimated total lease
       payments, any estimated bargain purchase option, operating and
       maintenance costs, and taxes not included in the capital leasing arrangement,
       less any estimated credits due under the lease at the end of the period defined
       above. Projected operating lease costs shall be based on the anticipated cost
       of leasing comparable facilities at fair market rates under rental agreements
       that would be renewed or reestablished over the period defined above, and
       any expected maintenance costs and allowable property taxes to be borne by
       the non-profit organization directly or as part of the lease arrangement.

45 C.F.R. §2543.23, Cost sharing or matching; states:

       (a) All contributions, including cash and third party in-kind, shall be accepted
       as part of the recipient's cost sharing or matching when such contributions
       meet all of the following criteria.
       (1) Are verifiable from the recipient's records.
       (2) Are not included as contributions for any other federally-assisted project or
       program.
       (3) Are necessary and reasonable for proper and efficient accomplishment of
       project or program objectives.
       (4) Are allowable under the applicable cost principles.
       (5) Are not paid by the Federal Government under another award, except
       where authorized by Federal statute to be used for cost sharing or matching.
       (6) Are provided for in the approved budget when required by the Federal
       awarding agency…

45 C.F.R. §2543.21, Standards for financial management systems, states:

       (a) Federal awarding agencies shall require recipients to relate financial data
       to performance data and develop unit cost information whenever practical.

       (b) Recipients' financial management systems shall provide for the following:

       (1) Accurate, current and complete disclosure of the financial results of each
       federally-sponsored project or program in accordance with the reporting
       requirements set forth in §2543.51. If a Federal awarding agency requires

                                              11
       reporting on an accrual basis from a recipient that maintains its records on
       other than an accrual basis, the recipient shall not be required to establish an
       accrual accounting system. These recipients may develop such accrual data
       for its reports on the basis of an analysis of the documentation on hand.

       (2) Records that identify adequately the source and application of funds for
       federally-sponsored activities.   These records shall contain information
       pertaining to Federal awards, authorizations, obligations, unobligated
       balances, assets, outlays, income and interest…

                                       *       *      *

       (6) Written procedures for determining the reasonableness, allocability and
       allowability of costs in accordance with the provisions of the applicable Federal
       cost principles and the terms and conditions of the award.

       (7) Accounting records including cost accounting records that are supported by
       source documentation.

Recommendations

We recommend that the Corporation:

   1a. Resolve the questioned costs and recover any disallowed costs;

   1b. Ensure CAPC & PCA adheres to its existing policies or creates policies and
       procedures to obtain and maintain documentation to support Federal and match
       funds claimed;

   1c. Ensure CAPA & PCA use management controls to ensure all costs claimed,
       including Federal and match, are properly supported. Management controls could
       include, management review of support, training and reconciliations; and

   1d. Ensure CAPC & PCA develop a recovery or back-up plan in the event of a natural
       disaster.

Child Abuse Prevention Council of Sacramento, Inc. & Prevent Child Abuse California’s
Response:

The grantee disagrees with the finding on the questioned mortgage interest. According to
grantee officials, the lease/purchase analysis was performed prior to the facility being
purchased. However, the documentation was lost due to black mold contamination in the
grantee’s office. The grantee provided a re-creation of the lease/purchase analysis based on
the 1999 market rate of cost per square foot for similar office space. The re-created analysis
was provided to the Corporation and included in the response to the draft report. Purchase is
less costly than renting according to the analysis.

The grantee also indicated that it has developed disaster recovery procedures against
problems such as toxic mold to protect documentation. The grantee concurs with the
questioned match costs. All match costs support was maintained by the grantee’s partners in
Program Years 2007-08 and 2008-09. The grantee performed periodic monitoring on a

                                              12
random sample of match cost support, but did not require complete documentation due to the
excessive administrative work required and a shortage of administrative funds. The grantee
changed the requirement in Program Year 2009-10 to require that all match costs be paid by
the grantee, with cash match from the service partners. As such, all support for match costs
is maintained by the grantee.

Corporation’s Response:

The Corporation agrees with the finding on the mortgage interest but will not question the
amount based on the re-created lease/purchase analysis, which confirmed that financing the
purchase was less costly than leasing. The Corporation also agrees to the recommendation
for strengthening the retention of support for match costs claimed.

Independent Accountants’ Comment

The re-creation of the lease/purchase analysis shows a cost benefit for financing the
purchase rather than leasing. However, maintaining the original analysis is a requirement of
the OMB circular and, without such an analysis, we cannot accurately determine if financing
the purchase is more cost beneficial than leasing. The OMB circular is silent on whether a re-
creation of such an analysis is allowable. In addition, the data used to populate the re-
created analysis might not be as accurate and reliable given the number of years that have
passed since 1999. During the resolution process, the Corporation should evaluate whether
the re-created analysis is acceptable with the OMB circular and the data used is properly
supported, fair, and competitive with the rates in the year the grantee purchased the building.

We concur with the grantee’s disaster recovery procedures. The Corporation should follow
up with the grantee to ensure the procedures are effectively implemented.

Finding 2.      Members did not always meet minimum program requirements to earn
                an education award and to have their accrued interest paid.

Of the 164 members whose timesheets were tested, two full-time and two half-time members
in Program Year 2008-2009 did not meet the 1,700 and 900 hour minimum requirements for
a full or half-time education award. In addition, one member in Program Year 2008-2009 was
awarded a partial award as a result of compelling personal circumstances, but the member’s
timesheets did not show sufficient hours to support the total hours certified on the exit form.

                                                           Education
  Member         Hours per Exit        Time Sheet            Award              Accrued
Sample No.           Form                Hours             Questioned           Interests
Full Time
       1                1,700.00         1,656.50            Note (1)                  -

       2                1,730.00         1,682.00            $4,725.00             $374
Half Time
       3                  900.00          775.60             $2,362.50                 -
       4                  900.00          862.00             $2,362.50                 -
Partial Award
       5                1,568.50         1,366.50            Note (2)


                                              13
Notes: (1) The member did not receive an education or accrued interest award.
       (2) The member’s education award and accrued interest are questioned in the next
       table because a compelling personal circumstance award was made when the
       member should have been allowed to make up the service hours.

CAPC & PCA indicated that members' timesheets were possibly misplaced and mathematical
errors occurred. As a result, $9,451 of education award costs and $374 of accrued interest
are questioned.

Two PCA full-time members under the 2008-2009 CWS program year, Grant No.
06ACHCA0010020, and one CAPC full time member under the 2008-2009 YIC program,
Grant No. 06AFHCA0010046, received partial awards but their compelling personal
circumstances for early exit did not meet the AmeriCorps provision requirements. Total
questioned education awards and accrued interest are $8,657 and $1,052, respectively, as
follows:

                                Education
  Member      Timesheet          Award        Accrued
Sample No.      Hours          Questioned     Interests       Compelling Reason
      6         696.00            $1,934            -    Medical Reasons.
      7         861.00           $2,365             -    Relocation/Medical Reasons
      5        1,366.50          $4,358        $1,052    Medical Reasons
        .
PCA Officials believe the circumstances were compelling. Member sample Nos.6 and 7
should have presented a doctor’s note supporting the need to exit the program early. In
addition, member sample No.5, should have made up the two weeks missed.

During our eligibility testing, we identified one full-time member enrolled under First 5 Service
Corp (First 5) in Program Year 2008-2009 who did not have proper eligibility documentation.
The member’s file contained a birth certificate to support that he was a U.S. citizen; however,
the name on the birth certificate did not match his name. Based upon further review, it was
noted that the grantee had observed the same exception during a routine review, but it was
discovered after the member had completed his term. As such, we have questioned the
member’s living allowance, as well as the education award.

                                            Living Allowance
                                                       Match       Education       Accrued
   Program             Member Status        CNCS                    Award          Interest
06AFHCA001003         Completed             $7,432      $ 5,600      $ 4,725           $ 198
                      Fringe Applied           569        1,508          N/A             N/A
                      Total Questioned      $8,001      $ 7,108      $ 4,725           $ 198

Criteria

AmeriCorps 2008 Grant Provisions, Special Provisions, Section A – Definitions, Subsection
(3) Member or Participant, states in part:

           Member or participant means an individual:
           a. Who has been selected by a grantee or sub-grantee to serve in an
           approved national service position;

                                               14
       b. Who is a U.S. citizen, U.S. national, or lawful permanent resident alien of
       the United States;
       c. Who is at least 17 years of age at the commencement of service unless the
       member is out of school and enrolled…

AmeriCorps 2008 Grant Provisions, Section IV AmeriCorps Special Provisions, Sub Section
J, Post Service Education Awards, states in part:

       In order to receive a full education award, a member must perform the
       minimum hours of service as required by the Corporation and successfully
       complete the program requirements as defined by the Program. For example,
       if successful completion of a full-time program requires 1,800 service hours,
       members in that particular program are not eligible for an education award
       simply upon completion of 1,700 hours.

45 CFR § 2522.230, “Under what circumstances may AmeriCorps participants be
released from completing a term of service, and what are the consequences?,” states:

       An AmeriCorps program may release a participant from completing a term of
       service for compelling personal circumstances as demonstrated by the
       participant, or for cause.
       (a) Release for compelling personal circumstances. (1) An AmeriCorps
       program may release a participant upon a determination by the program,
       consistent with the criteria listed in paragraphs (a)(5) through (a)(6) of this
       section, that the participant is unable to complete the term of service because
       of compelling personal circumstances.
       (2) A participant who is released for compelling personal circumstances and
       who completes at least 15 percent of the required term of service is eligible for
       a pro-rated education award.
       (3) The participant has the primary responsibility for demonstrating that
       compelling personal circumstances prevent the participant from completing the
       term of service.
       (4) The program must document the basis for any determination that
       compelling personal circumstances prevent a participant from completing a
       term of service.
       (5) Compelling personal circumstances include:
       (i) Those that are beyond the participant's control, such as, but not limited to:
       (A) A participant's disability or serious illness;
       (B) Disability, serious illness, or death of a participant's family member if this
       makes completing a term unreasonably difficult or impossible; or
       (C) Conditions attributable to the program or otherwise unforeseeable and
       beyond the participant's control, such as a natural disaster, a strike, relocation
       of a spouse, or the nonrenewal or premature closing of a project or program,
       that make completing a term unreasonably difficult or impossible;
       (ii) Those that the Corporation, has for public policy reasons, determined as
       such, including:
       (A) Military service obligations;
       (B) Acceptance by a participant of an opportunity to make the transition from
       welfare to work; or



                                              15
       (C) Acceptance of an employment opportunity by a participant serving in a
       program that includes in its approved objectives the promotion of employment
       among its participants.
       (6) Compelling personal circumstances do not include leaving a program:
       (i) To enroll in school;
       (ii) To obtain employment, other than in moving from welfare to work or in
       leaving a program that includes in its approved objectives the promotion of
       employment among its participants; or
       (iii) Because of dissatisfaction with the program.
       (7) As an alternative to releasing a participant, an AmeriCorps*State/National
       program may, after determining that compelling personal circumstances exist,
       suspend the participant's term of service for up to two years (or longer if
       approved by the Corporation based on extenuating circumstances) to allow the
       participant to complete service with the same or similar AmeriCorps program at
       a later time.

Recommendations

We recommend that the Corporation:

   2a. Disallow and, if already used, recover education awards and accrued interest on
       awards made to ineligible members;

   2b. Ensure CAPC & PCA develops adequate controls and procedures to accurately
       calculate members hours and safeguard documentation, especially members
       timesheets;

   2c. Provide guidance to CAPC & PCA with respect to AmeriCorps provisions and
       requirements for compelling personal circumstances and partial education awards;
       and

   2d. Ensure doctor’s notes are obtained to support medical reasons for leaving a program
       early.

Child Abuse Prevention Council of Sacramento, Inc. & Prevent Child Abuse California’
Response:

The grantee did not fully agree with the finding on members with insufficient hours. For
member #1, the grantee did not approve the member’s education award and, therefore, the
member should not have received an award. For members #3 and #4, the grantee indicated
it has obtained and submitted to the Corporation additional signed timesheets to support the
missed hours. The grantee agrees with the missed hours for members #2 and #5.

The grantee disagrees with the finding on non-compelling circumstances. For member #5,
the member was unable to make up the hours and did serve until the end of the program
year. For member #6, the grantee indicated the regulation does not define “demonstrated by
member” and the member in question had a health problem that prevented her from
continuing. Member #7 had health issues and wanted to relocate in order to be with her
spouse and child.

The grantee agrees with the finding for the ineligible individual.

                                                16
Corporation’s Response:

The Corporation confirmed that member #1 did not receive an education award. It also
reviewed the additional timesheets for members #3 and #4 provided by the grantee and
accepted them as properly certified. The Corporation agrees with the missed hours for
member #2. For the three members with compelling personnel circumstance issues, the
Corporation determined that the grantee appropriately followed AmeriCorps regulations. It
also disagrees with Auditor’s recommendation to obtain a doctor’s note.

The Corporation agrees with the finding for the ineligible member.

Independent Accountants’ Comment:

We concur with the grantee that an education award was not granted to member #1 and have
revised our report to exclude the questioned award. For members #3 and #4, we did not
receive the additional timesheets that the grantee provided to the Corporation; therefore, we
are unable to determine if they are acceptable. We recommend that the Corporation ensure
that the additional timesheets provided are the originals and not recertification by the
members. If they are recertification, the Corporation should consider the validity of the hours
since the member might not be able to recall the actual hours served a few years ago.

Member #5 missed two weeks for a medical reason and had four months remaining after
returning to complete the program. Based on our review of timesheets, the member was
333.50 hours short of the minimum full-time requirement. Therefore, the member’s two-week
medical leave, the equivalent of 80 service hours, was not a major factor in the member’s
lack of service hours for an education award.

According to a note from member #6, the compelling personal circumstance was a health
issue. We believe requests for partial awards caused by health reasons should include a
note from the health professional to justify the award.

Member #7 indicated she was temporarily moving and would return to complete her
education. The grantee could have suspended the member and allowed her to complete her
service term with the same or a similar AmeriCorps program at a later time.


Finding 3.   Non-compliance with AmeriCorps provisions, including late submission
             of member forms; members serving before being enrolled; missing
             documentation for attending orientation or orientation not performed; and
             evaluations not performed.

Late submissions of member forms

Our testing found that the following required forms were submitted late (1 to 112 days):

    •   37 of 164 Enrollment Forms (1 to 105 days); and
    •   12 of 164 Member Exit Forms (to 112 days).

According to the grantee, the late submission of member-related forms was due to various
factors, including data conversion issues between the WBRS and My AmeriCorps Portal

                                              17
systems, inaccurate slot allocation in eGrants, and incorrect grantee profile information in
eGrants. In addition, some forms were submitted late because the grantee's partners
submitted their members’ information late to the grantee.

Criteria

AmeriCorps 2008 Grant Provisions, Section IV AmeriCorps Special Provisions, Sub Section
C - Member Recruitment, Selection, and Exit § 1 - Notice to the Corporation’ National Service
Trust, states in part:

           The grantee must notify the Corporation’s National Service Trust within 30
           days of a member’s selection for, completion of, suspension from, or release
           from, a term of service. Suspension of service is defined as an extended
           period during which the member is not serving, nor accumulating service
           hours or receiving AmeriCorps benefits.

Members served prior to being enrolled

Ten of the 164 members tested incurred a total of 243.25 service hours prior to signing their
AmeriCorps contracts in Program Year 2008-2009. The grantee indicated that, during that
period, signing member contracts before beginning service was not part of its Quality
Assurance practice.

Criteria

AmeriCorps 2008 Grant Provisions, Section IV AmeriCorps Special Provisions, Sub Section
D – Supervision and Support § 2 – Member Contracts, states in part:

           The grantee should ensure that the contract is signed before commencement
           of service so that members are fully aware of their rights and responsibilities.

Missing documentation for orientation attendance or orientation not performed

Three members in 2009-2010 did not have proof they had attended AmeriCorps orientation.
The grantee stated two of the members received orientation from their program manager;
however, the sessions were not documented via a sign-in sheet or similar method. The other
member did not attend orientation session, but had notified her supervisor of the oversight.

Criteria

45 CFR, Part 2522 – AmeriCorps Participants, Programs, and Applicants, Subpart A –
Minimum Requirements and Program Types, Section 2522.100(g)(2) states in part;

           In addition, all programs are required to comply with any pre-Service
           orientation or training period requirements established by the Corporation to
           assist in the selection of motivated participants…

In addition Section 2522.100(j) states;

           Provide participants in the program with the training, skills, and knowledge
           necessary to perform the tasks required in their respective projects, including,

                                                 18
       if appropriate, specific training in a particular field and background information
       on the community, including why the service projects are needed

Evaluations not performed

During our testing of member evaluations for 164 members, we noted two members from
CAPC and two members from PCA who did not receive a midterm evaluation. In addition,
one member from PCA did not receive an end-of-term evaluation. The grantee indicated that,
during Program Year 2008-2009, evaluations were performed by site supervisors and
maintained by the partners. This hampered the grantee’s ability to ensure that every member
had undergone required evaluations.

AmeriCorps 2008 Grant Provisions, Section IV AmeriCorps Special Provisions, Sub Section
D – Supervision and Support § 4 - Performance Reviews, states:

       The grantee must conduct and keep a record of at least a midterm and end-of-
       term written evaluation of each member's performance for Full and Half-Time
       members and an end-of-term written evaluation for less than Half-time
       members. The evaluation should focus on such factors as:

              (a). Whether the member has completed the required number of hours;
              (b). Whether the member has satisfactorily completed assignments;
              and
              (c). Whether the member has met other performance criteria that were
              clearly communicated at the beginning of the term of service.


Recommendations

We recommend that the Corporation:

   3a. Ensure that CAPC & PCA: (1) develops alternative procedures for updating member’
       status in My AmeriCorps Portal or other applicable systems, (2) strengthen
       procedures for submission of documentation during the enrollment process, and (3)
       uses alternative means to submit member forms when technical problems arise; and

   3b. Instruct CAPC & PCA to enforce its current quality assurance policies and
       procedures to ensure: (1) members have signed a contract before beginning service
       and CAPC & PCA performs all required evaluations; (2) members receive orientation
       and that the grantee maintains documentation; (3) members receive all evaluations.

Child Abuse Prevention Council of Sacramento, Inc. & Prevent Child Abuse California’s
Response

The grantee concurs with the finding and has implemented updated policies and procedures
to address the conditions.

Corporation’s Response:

The Corporation concurs with the finding.


                                              19
Independent Accountants’ Comment

Auditor concurs with the corrective action plan. The Corporation should follow up with the
grantee to ensure its actions have been implemented.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, Child Abuse Prevention Council of Sacramento, Inc. & Prevent
Child Abuse California, and the U.S. Congress. However, this report is a matter of public
record and its distribution is not limited.




Irvine, California
January 18th, 2011




                                           20
                      APPENDIX A

  CHILD ABUSE PREVENTION COUNCIL OF SACRAMENTO, INC. &
PREVENT CHILD ABUSE CALIFORNIA RESPONSE TO DRAFT REPORT
EXECUTIVE COMMITTEE
Rav McNally
                                                    March 15,2011
Chairman
l.kNlltl Tam~le    Msocllt~ ~,   Ioc.
Rogar Dreyer
Ore~e r   Babil;h Buccola Ca\\~m WOOd LlP
Hon . Talmadge Janes
Co·Chair, Board GovernJnc~ Committee                Richard Samson
CA Superior tour1 Judge. Sacramenta County IRe!.)
John Lambeth
                                                    Audit Manager
Chafr. Sialt Policy Commill~
Civitas Advisors                                    Office of Inspector General
laura Lyon
Co·Chalr, Communiry Conneerions         Commltt~e
                                                    Corporation for National and Community Service
Lyon Real ESlllte
                                                    1201 New York Avenue, NW, Suite 830
Laurie Rose
Co·Chair. 8rurd Govtrnanct Commiltee
Sutter Medlc.1 Cenler, S,crJmenlc
                                                    Washington, DC 20525
Allred Rowle"
Co·Cmir. Communiry Connec/lons Commlltee
lumina PoInl Community Prcgrams. loc.               Dear Mr. Samson;
MEMBERS AT LARGE
Ken Blomstelberg                                    Enclosed please find comments from The Child Abuse Prevention Council of
Marcus & Mi llichlP
Judie Boehmer, RN, MN
                                                    Sacramento (CAPC), and Prevent Child Abuse California (PCA) to the Office of
UC Davis Medical Cenler, Childr~n·s Hospital
                                                    Inspector General on the agreed-upon procedures for the grants awarded to
Anlhony Burg
Suner H~ol!h                                        CAPC and PCA by the Corporation for Nation al and Community Service.
Debra Evans
Thomson Reuters
Daniel A. Falco, M.O.
Sulilf Medica l Cenler, Sacrlmenlo                  If you would like to request additional information, please feel free to contact
Tamar M. Gallett
Inlel Corporallon
                                                    our CFO Lori Divine at (916) 244-1982 or Stephanie Biegler our Director at
Donald Hudson                                       (916) 244-1975.
CathoTIC Healihcare Wnl, Mer~ folsom
Sieve Jelltey
Struclurallntegrily Assoclat~, Inc.
Kalhleen McKenna
KaIser Perm3l1ente
James MOlanle
P~emc Gas to Ereclric Corpora lion

Cella Esposlto·Noy
Cosumnes River Cnlleg8                                         e
Nicole Rogers
Chlpolle Medcan Grill
                                                    President and CEO
lisa Skyla,
Hen ONE     R~earch.   Inc.
Don Stocker                                         Enclosure
6an~   or Amerlu
Siellhen Walk"
calilornia CorrWlonal Peace
Olricers Assoclallon                                Cc:   Claire Moreno, Audit Resolution, CNCS
Chantelle Washtnllton
WellS f argo
                                                          Stephanie Biegler, Director, CAPC
Joe Wilson                                                Lori Divine, CFO, CAPC
lyoo Real Eslate
WUIBV Will
R~lIr&d   AlchltW
Sheila BOl lev
Pre5ident'" ceo
Ch ild Abuse Prel'ention Center




               The Child Abuse Prevention Center . 4700 Roseville Road . North Highlands , California 95660 • HOO·CHILDREN fax 916-244-1905
                                                                    www.thecapcenter.org
Finding 1:     CAPC & PCA lacked sufficient support for mortgage interest and
               other program match costs claimed.

1. a    Resolve the questioned costs and recover any disallowed costs;
1. b    Ensure CAPC & PCA adheres to its existing policies or creates policies and
        procedures to obtain and maintain documentation to support Federal and match
        funds claimed;
1. c.   Ensure CAPC & PCA develop a recovery or back-up plan in the event of a natural
        disaster; and
1. d.   Ensure CAPC & PCA develop more effective management controls to ensure all
        costs claimed, including Federal and match, are properly supported.

The Child Abuse Prevention Council of Sacramento (CAPC) and Prevent Child
Abuse California (PCA) response to Finding 1:

Mortgage Interest: CAPC and PCA disagree with the finding that mortgage interest
should not be allowable for the following reasons. CAPC began their initial building
analysis in 1999 when their Board of Directors and CEO realized that to continue the
growth in services utilizing AmeriCorps’ members, a larger facility that had substantial
space for training rooms would be needed. The Board appointed a committee to study
the feasibility of either purchasing or leasing a larger space. In conjunction, a public
relations firm was commissioned to perform a study to determine the feasibility of a
building campaign that would raise a substantial portion of a purchase price for a new
facility, thus making the cost more economical.

In September 2000 toxic mold was found in the facility that CAPC was leasing at that
time. Due to health concerns, all staff was immediately evacuated from the building and
CAPC was not allowed to remove any records or equipment. Therefore all Board
committee reports, analysis, minutes, etc. were lost and unrecoverable. As a result of the
unavailability of the original documents, CAPC recreated a Lease versus Purchase
analysis which is attached hereto and marked as Exhibit A. This analysis is based on the
cost per square foot in 1999 for similar office space. This analysis clearly demonstrates
that it was less expensive to purchase than to lease.

As part of CAPC and PCA’s current disaster recovery procedures, the file server
performs a full backup weekly and an incremental backup each day. Each Monday, after
the full backup has been performed on Sunday, the USB hard drive containing the full
and incremental backups for the prior week is taken offsite and stored in a safe deposit
box at a local bank. The hard drive for the prior week is removed from the safe deposit
box and returned to the CAPC and PCA office. This process ensures that all electronic
files are recoverable in the event of a disaster such as toxic mold.

Match costs claimed in Program Year 2008/2009 that lacked invoices or original
receipts: CAPC and PCA concur with this finding. During the 2008/2009 Program
Year, PCA awarded service sites funding from grants with the Corporation for National
and Community Service (CNCS). The amount of the funding passed down to the

Page 1 of 6
partners was based on whether their members were serving 1700 hours or 900 hours.
Service sites submitted claims to PCA which PCA invoiced to its AmeriCorps grants.
Supporting documentation for the claims were maintained at the partner service site.
During the 07/08 and 08/09 Program Years, PCA’s fiscal staff did random sample audits,
but did not require complete documentation of all costs at the time of submission of a
claim as the cost of staffing to manage that process would have been excessive and
unrecoverable given the low fixed administrative rate on CaliforniaVolunteers (CV) and
CNCS grants. During the OIG audit, some service sites were not able to locate all of the
receipts to support the costs claimed. Beginning in the 2009/2010 Program Year PCA
changed its method of contracting with partners to a cash match arrangement. All of the
costs associated with the program are paid by PCA thereby eliminating the risk of the
partner sites not having adequate fiscal systems in place. The cash match method of
contracting with partner sites also eliminated the member file audit issues discussed later
in this response.

Living allowance over-claimed match costs: PCA concurs with this finding. As with
1.2 above, changing the method of contracting with partners to cash match has eliminated
partner claims. All costs for AmeriCorps’ members are paid by CAPC and PCA and
partners do not submit claims. This allows CAPC and PCA fiscal staff to ensure that
appropriate documentation is maintained. The risk of data entry errors while processing
partner claims to meet CV and CNCS fiscal reporting deadlines has been eliminated.


Finding 2.     Members did not always meet minimum program requirements to
               earn an education award and to have their accrued interest paid.

2a.            Disallow and, if already used, recover education awards and accrued
               interest on awards made to ineligible members.

2b.            Ensure CAPC and PCA develop adequate controls and procedures to
               accurately calculate members hours and safeguard documentation,
               especially timesheets, and

2c.            Provide guidance to CAPC and PCA with respect to AmeriCorps
               provisions and requirements for compelling personal circumstances and
               partial education awards.

2d.            Ensure doctor’s notes are obtained to support medical reasons for leaving
               a program early.

The Child Abuse Prevention Council of Sacramento (CAPC) and Prevent Child
Abuse California (PCA) response to Finding 2:

Member
Sample #1      PCA disagrees with the finding and the resulting questioned costs. PCA
               did not approve Member Sample #1 for an education award due to a

Page 2 of 6
              conflict between the date when the member ended her AmeriCorps term of
              service and when she began her employment with the partner agency.
              After numerous requests from PCA, the partner agency failed to provide
              the requested documentation so PCA could ascertain/verify that the
              member did not receive service hours for employment. In order to be fully
              compliant with AmeriCorps provisions and requirements, PCA did not
              approve the member for an education award. Supporting documentation
              and a detailed timeline have been provided to the Corporation.

Member
Sample #2     PCA concurs with the finding that the exit form hours differ from the
              timesheet hours. Member #2 was awarded an education award based on a
              mathematical error that calculated 1700 hours instead of the accurate
              1682.0 hours. This is an isolated incident. As of Program Year 2009/10,
              member hours that are entered into exit forms are generated from the
              electronic time keeping system and verified by CAPC program managers.
              PCA’s enforcement of quality assurance policies and procedures ensures
              accurate calculation of member service hours.

Member
Sample #3     PCA disagrees with the finding and the resulting questioned costs. PCA is
              in receipt of the member’s signed timesheets for the hour differences
              between 775.60 hours and 900.0 hours. PCA calculated all timesheets,
              including those received in time for this response, and the member hours
              total to 914.10. Supporting documentation including the additional
              timesheets has been provided to the Corporation. As of Program Year
              2009/10, member hours are entered and calculated via an electronic time
              keeping system eliminating calculation errors. Member hours that are
              entered into exit forms are generated from the electronic time-keeping
              system and verified by PCA program managers. Timesheets are placed in
              member files and member files are kept in a locked and secure file cabinet.


Member
Sample #4     PCA disagrees with the finding and the resulting questioned costs. PCA is
              in receipt of the member’s signed timesheets for the hour differences
              between 862.0 hours and 900.0 hours. PCA calculated all timesheets,
              including those received in time for this response, and the member hours
              total to 905.00. Supporting documentation including the additional
              timesheets has been provided to the Corporation. As of Program Year
              2009/10, member hours are entered and calculated via an electronic time
              keeping system eliminating calculation errors. Member hours that are
              entered into exit forms are generated from the electronic time-keeping
              system and verified by PCA program managers. Timesheets are placed in
              member files and member files are kept in a locked and secure file cabinet.



Page 3 of 6
Member
Sample #5      CAPC concurs with the finding that the exit form hours differ from the
               timesheet hours. The difference in the exit form hours and the timesheet
               hours is due to a data entry error. During Program Year 2008/09, member
               service hours were entered on a hard copy timesheet and calculated
               manually. CAPC staff then verified the hours. As of Program Year
               2009/10, member hours are entered and calculated via an electronic time
               keeping system eliminating calculation errors. Member hours that are
               entered into exit forms are generated from the electronic time-keeping
               system and verified by CAPC program managers. Timesheets are placed
               in member files and member files are kept in a locked and secure file
               cabinet.

               CAPC disagrees with the finding and the resulting questioned costs, that
               the compelling personal circumstance for Member Sample #5 did not meet
               the AmeriCorps provision requirements. The regulation does not define
               ‘demonstrated by member’.

Member
Sample #6      PCA disagrees with the finding and the resulting questioned costs, that the
               compelling personal circumstance did not meet the AmeriCorps provision
               requirements. The regulation does not define ‘demonstrated by member’.



Member
Sample #7      PCA disagrees with the finding and the resulting questioned costs, that the
               compelling personal circumstance did not meet the AmeriCorps provision
               requirements. The regulation does not define ‘demonstrated by member’.

PCA concurs with the finding that a First 5 Service Corps member did not have proper
eligibility documentation. This was an isolated incident. Currently, PCA partners
complete a pre-enrollment form indicating that citizenship verification is a mandatory pre
-enrollment requirement. As part of the pre-enrollment documentation, partners must
submit to PCA a copy of the applicant’s birth certification, current passport, or permanent
resident card. PCA reviews the pre-enrollment eligibility documents and approves the
applicant for enrollment after the completion of the background check. PCA has quality
assurance policies and procedures in place to ensure that eligibility documentation is
received and reviewed.

Please note that all nine ‘Member Samples’ in Finding 2 were for Program Year 2008/09.
Importantly, there were none for Program Year 2009/10 indicating the accuracy of the
CAPC and PCA electronic time keeping system and the enforcement of quality assurance
policies and procedures.




Page 4 of 6
Finding 3.    Non-compliance with AmeriCorps provisions, including late
              submissions of member forms; members serving before being
              enrolled; missing documentation for attending orientation or
              orientation not performed and evaluations not performed.

3a.           Ensure that CAPC and PCA (1) develop alternative procedures for
              updating member status in My AmeriCorps Portal or other applicable
              systems, (2) strengthens procedures for submission of documentation
              during the enrollment process, and (3) uses alternative means to submit
              member forms when technical problems arise.

3b.           Instruct CAPC and PCA to enforce its current quality assurance policies
              and procedures to ensure (1) members have signed a contract before
              beginning service and CAPC and PCA perform all required evaluations;
              (2) members receive orientation and that the grantee maintains
              documentation, (3) members receive all evaluations.

The Child Abuse Prevention Council of Sacramento (CAPC) and Prevent Child
Abuse California (PCA) response to finding 3:

Late submission of member forms: CAPC and PCA concur with this finding. Twenty-
four of the 49 forms were considered a late submission due to data conversion issues
between WBRS and My AmeriCorps Portal systems. Thirteen of the 49 forms were
considered a late submission due to various problems with WBRS, including but not
limited to, errors in WBRS Grantee Information Profile and inaccurate slot allocations.
Three of the 49 forms were considered a late submission due to problems with eGrants,
including initial slot allocation and eGrants prohibiting the timely exit of a suspended
member. CAPC and PCA notified the Help Desk and the State Commission of this
problem. CAPC and PCA did not receive technical assistance from either entity regarding
the WBRS/eGrants issues. In the future, PCA and CAPC will specifically request
alternative means when technical problems arise.

The remaining nine forms were submitted late due to program manager errors, including,
the miscalculation of the 30-day deadline, staff out unexpectedly sick, and PCA not
receiving required paperwork from member’s supervisors within 30 days.

Currently, CAPC and PCA partners are required to forward pre-enrollment documents,
including but not limited to, proof of eligibility, government-issued photo identification
to the CAPC and PCA program manager. CAPC and PCA then conduct background
checks and inform the partner if an applicant has been approved to enroll. Partners then
submit to CAPC and PCA all required enrollment documents no less than 5 business days
before the member’s first day of service. CAPC and PCA review all documents and
enters members into eGrants within 30 days of member enrollment date. Currently,
CAPC and PCA’s quality assurance policies to ensure timely submission of member
forms are being followed.



Page 5 of 6
Members served prior to being enrolled: CAPC and PCA concur with this finding.
Currently, PCA requires that members sign their member contract no less than 5 business
days before the member’s first day of service. As stated above, the documents are then
forwarded to PCA for review. Currently, CAPC requires that members attend a
mandatory enrollment workshop prior to enrollment. During the enrollment workshop,
member contracts are reviewed and signed. Currently, CAPC and PCA’s quality
assurance policies to ensure that member contracts are signed prior to enrollment are
being followed.

Missing documentation for orientation attendance or orientation not performed: PCA
concurs that documentation of orientation for two PCA members was missing from the
member files and contends that members did receive pre-service orientation from the
PCA program manager on behalf of PCA staff that was out sick the day of orientation.
Currently, PCA program managers conduct mandatory webinar-based member
orientations where members’ names are entered into a sign-in sheet. PCA program
managers compare the sign-in sheets to the electronic timesheets to ensure that members
are correctly recording their attendance at orientation. The PCA program managers run a
query that verifies all members have attended orientation. The one CAPC member that
did not attend orientation was an isolated incident. The service site agency is no longer a
CAPC partner. Currently, CAPC and PCA’s quality assurance policies to ensure
members attend orientation are being followed.

Evaluations not performed: CAPC and PCA concur with this finding. Currently, PCA and
CAPC program managers generate a spreadsheet indicating, by member, the due dates of
mid-term and end of term evaluations. These dates are then communicated to member
supervisors via email or in person, with reminders two weeks and one week prior to
evaluation due dates. Supervisors submit completed evaluations to PCA and CAPC
program managers. Completed evaluations are placed in member files. Member files are
kept in a locked and secure file cabinet. Late submissions are included in partner
compliance summaries and taken into consideration for continuing participation in the
program. Currently, for members that complete their term of service early, evaluations
are one of the required exit documents, prior to exiting the member from the program.

Please note that 62 of the total 67 ‘Member Samples’ in Finding 3, were for Program
Year 2008/09. Importantly, there were five for Program Year 2009/10 indicating that
CAPC and PCA are enforcing their quality assurance policies and procedures to ensure
timely submissions of member forms, member contracts signed prior to enrollment,
member orientation attendance and documentation, and completion of member
evaluations.




Page 6 of 6
                          APPENDIX B

Corporation for National and Community Service’s Response to Draft
                              Report
                                      NATIONAL &
                                      COMMUNITY
                                      SERVICEtUJ
To:

From:                                                      anagement

Date:

Subject:       Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to the Child
               Abuse Prevention Council of Sacramento, Inc. (CAPC) & Prevent Child Abuse
               California (PCA)


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grants awarded to Child Abuse Prevention Council of Sacramento,
Inc. (CAPC) & Prevent Child Abuse California (PCA). The Corporation reviewed the OIG report, met
with the OIG Audit Manager and the grantee and reviewed the response to the draft audit from the Child
Abuse Prevention Council. We are addressing all draft findings at this time. If the OIG concurs with our
decisions, the Corporation will complete confirmation of corrective action on all three compliance
fmdings within 90 days ofthe audit issue date.

Finding 1: CAPC & PCA lacked sufficient support for mortgage interest and other program match
costs claimed.

la. Resolve the questioned costs and recover any disallowed costs;

1b. Ensure CAPC & PCA adheres to its existing policies or creates policies and procedures to obtain and
    maintain documentation to support Federal and match funds claimed;

Ic. Ensure CAPC & PCA develop a recovery or back-up plan in the event of a natural disaster; and

Id. Ensure CAPC & PCA develop more effective management controls to ensure all costs claimed,
    including Federal and match, are properly supported.

Corporation Response: The Corporation agrees with the fmding but based on the lease vs. purchase
analysis provided by CAPC & PCA, the Corporation will allow the claimed mortgage interest costs of
$4,780. It is evident that CAPC performed a lease vs. purchase analysis prior to acquiring the property in
question but the documents were lost in a toxic mold incident. In response to the audit, CAPC followed
the OMB Circulars to reconstruct its comparative analysis and provided this to the OIG. CAPC's analysis
confrrrns financing the purchase was less costly than other leasing alternatives. The Corporation agrees
with Recommendations I b.·and 1dand will verifY the procedures CAPC & PCA implemented in PY
2009/2010 to strengthen accurate reporting of claimed federal and match costs. CAPC & PCA will
integrate match reporting into its fmancial management system. We will also confrrrn the Council
implements the contract changes related to cash match arrangements with its partners and establishes
disaster recovery procedures.
Finding 2. Members did not always meet minimnm program reqnirements to earn an education
award and to have their accrued interest paid.

2a. Disallow and, if already used, recover education awards and accrued interest on awards made
    to ineligible members.

2b. Ensure CAPC and PCA develop adequate controls and procedures to accurately calculate members
    hours and safeguard documentation, especially timesheets, and

2c. Provide guidance to CAPC and PCA with respect to AmeriCorps provisions and requirements for
    compelling personal circumstances and partial education awards.

2d. Ensure doctor's notes are obtained to support medical reasons for leaviug a program early.

Corporation Response: The auditors questioned the education award for two full-time and two half-
time members because the programs had insufficient hours documented to support the award. CAPC &
PCA provided detailed responses for the questioned members and demonstrated that the audit findings
resulted from misplaced timesheets and mathematical or audit error. The Corporation confirmed with the
OIG that one full-time member had not received an education award in PY 2008-2009 and the OIG
agreed it will omit this questioned award from the fmal audit. PCA provided the Corporation the missing
timesheets and reconciliations of service hours to demonstrate each served 900 hours. The Corporation
considers the two half-time members awards properly certified and will allow the education awards. The
Corporation confirmed that the one remaining full-time member was 18 hours short of the 1700 hours
required. For the member short 18 hours, the Corporation will reserve our decision on the education and
accrued interest awards to allow us to review the circumstances resulting in the error and determine the
amount of the debt against the certifying program. The Corporation agrees with the auditor that the final
member from First 5 Service Corps did uot have proper eligibility documeutatiou and the educatiou
award is disallowed. The $8,00 I in living allowance and other beuefits for the ineligible First 5 member
are disallowed. The Corporation will ensure the electrouic timekeeping system implemented in PY
2009-2010 strengthens accuracy of member hours and safeguards timesheets.

The auditors questioned the pro-rated education awards and interest awards provided to three members
because they did not believe the rational for providing pro-rated awards met the requirements for
compelling personal circumstances. The auditor noted one member, who was on medical leave for two
weeks, should have made up the two missed weeks of service instead of being exiting with a partial
award. The auditor did not accept the exit for compelling personal circumstance for another member
whose spouse was relocated. The Corporation reviewed the program documentation on the exits for the
three members and determined CAPC & PCA appropriately followed AmeriCorps regulations for
approving partial awards for compelling personal circumstances. The education awards for two members
are allowed. However, we will defer our management decision on the amount of the partial education
award and interest award for the third member to allow us time to verify hours served on timesheets and
ensure correct computation of the award. Furthermore, the Corporation does not agree with the auditor's
recommendation to obtain doctor's notes to support medical reasons for leaving a program early. The
decision on when a doctor's note should be required is best determined by program managers on a case-
by-case basis. In addition, we have no legal basis to disallow it because neither the Corporation's
regulations nor the program's own policies require a doctor's note.




                                                2
Finding 3. Non-compliance with AmeriCorps provisions, inclnding late submissions of member
forms; members serving before being enrolled; missing documentation for attending orientation or
orientation not performed and evaluations not performed.


3a. Ensure that CAPC and PCA (I) develop alternative procedures for updating member status in My
    AmeriCorps Portal or other applicable systems, (2) strengthens procedures for submission of
    documentation during the enrollment process, and (3) uses alternative means to submit member forms
    when technical problems arise.

3b. Instruct CAPC and PCA to enforce its current quality assurance policies and procedures to ensure (I)
    members have signed a contract before beginning service and CAPC and PCA perform all required
    evaluations; (2) members receive orientation and that the grantee maintains documentation, (3)
    members receive all evaluations.

Corporation Response: The Corporation agrees with the audit findings and recommendations and will
verifY that the policies and procedures presented in the CAPC & PCA detailed response to the draft are
implemented and adequately address the compliance issues of timely submission of member forms,
obtaining signatures timely on member contracts, documenting attendance at member orientations and
timely completion of member evaluations.

Cc:   William Anderson, Chief Financial Officer
      Wilsie Minor, Acting General Counsel
      John Gomperts, Director of AmeriCorps




                                                3
